                     -       P   .   -               -   -                                  .-"   -
                                                                                                         /I

                                                                                                         I




                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAC
                                                   OFFICE OF INVESTIGATIONS




       OIG initiated an investigative proactive review to assess the potential for fraud or
       mismanagement of funds in an international collaborative program. Specifically, OIG had
       processed several cases where participant support funds were converted for other uses without
       the prior approval of the program manager. The conversion of the funds for other uses meant
       that the awards did not facilitate the collaborations for which the funds were provided; rather
       they provided supply funds for the PIS' laboratories.

       OIG reviewed the financial documents in award1 in this case and subsequently requested further         '
       explanation for the travel charges for six participants. The awardee2provided additional
       information that allowed OIG to resolve its concerns. This case is closed.




                                                                                                                  ,
                                                                                                                  ,I

                                                                                                                                              I
                                                                                                                  I\

                                                                                                                  \I

                                                                                                                      I\

                                                                                                                      I1
                                                                                                                                              1

                                                                                                                       11
                                                                                                                           I1                 i
                                                                                                                                                  I
                                                                                                                                                  1

                                                                                                                                                  1!
                                                                                                                           II

                                                                                                                            I



                                                                                                                                                      I
                                                                                                                                                      i
                                                                                                                                /I


                                                                                                                                11                    I
                                                                                                                                                      I
                                                                                                                                I


                                                                                                                                 fi

                                                                                                                                     U

                                                                                                                                      I

                                                                                                                                      I




                                                                                                                                         I,


                                                                                                                                          I




NSF OIG Fonn 2 (1 1/02)
